Bowman v. Boyd
Appendix
Opinion of the
United States Court of Appeals
for the Sixth Circuit
No Petition for Rehearing was Filed

Bowman v. Lee | WestlawNext

Page 1 of 4

WESTLAW

*

Bowman v. Lee
United States Court of Appeals, Sixth Circuit, j February 25, 2020

Not Reported in Fed. Rptr. j 2020 WL 2046568

(Approx. 3 pages)

'

2020 WL 2046568
Only the Westlaw citation is currently available.
United States Court of Appeals, Sixth Circuit.
Josh L. BOWMAN, Petitioner-Appellant,
v.
Randy LEE, Warden, Respondent-Appellee.
No. 19-6242
FILED February 25, 2020
Attorneys and Law Firms
Josh L. Bowman, Pro Se
Courtney Orr, Office of the Attorney General of Tennessee, Nashville, TN, for RespondentAppellee
Before: SUTTON, Circuit Judge.
ORDER
*1 Josh L. Bowman, a pro se Tennessee prisoner, appeals the district court’s judgment
denying his petition for a writ of habeas corpus under 28 U.S.C. § 2254. Bowman moves
the court for a certificate of appealability (COA) and to proceed in forma pauperis on
appeal.

0

Bowman was charged with first-degree felony murder, especially aggravated kidnapping,
especially aggravated robbery, aggravated burglary, and employing a firearm during the
commission of a dangerous felony, all arising out his participation in a home-invasion
robbery in which he and his accomplice murdered Bill Graves. Claiming that arresting
sheriffs deputies made threats of violence against him and his children, Bowman moved to
suppress statements that he made during his custodial interrogation on the ground that his
statements were not voluntary. The trial court held an evidentiary hearing on Bowman’s
motion to suppress, during which he testified about the deputies’ alleged threats. The trial
court found that Bowman was not credible and that any incriminating statement that he
made during interrogation occurred after the police advised him of his constitutional rights
under Miranda v. Arizona, 384 U.S. 436 (1966). The court therefore denied the motion to
suppress.
The case proceeded to a jury trial, resulting in Bowman’s convictions of three counts of
first-degree felony murder, one count of especially aggravated kidnapping, one count of
especially aggravated robbery, two counts of aggravated burglary, and one count of
employing a firearm during the commission of a dangerous felony. After the jury’s verdicts,

https://nextcorrectional.westlaw.com/Document/If48451708a3al 1 ea9a06996af6fc200d/View/FulL.. 6/25/2020

Bowman v. Lee | WestlawNext

Page 2 of 4

Bowman pleaded guilty to employing a firearm during the commission of a dangerous
felony with a prior felony conviction. The trial court merged the murder convictions, the
burglary convictions, and the firearms convictions and sentenced Bowman to an aggregate
term of life in prison plus sixty years.
The Tennessee Court of Criminal appeals vacated Bowman’s kidnapping conviction due to
an error in the jury instructions and ordered a new trial as to that charge. The court affirmed
Bowman’s other convictions. See State v. Bowman, No. E2012-00923-CCA,-R3-CD, 2013
WL 4680402 (Tenn. Crim. App. Aug. 29, 2013), perm. app. denied (Tenn. Feb. 11,2014).
On remand, Bowman pleaded guilty to especially aggravated kidnapping and received a
sentence of fifteen years of imprisonment, to be served concurrently with his sentence on
the murder conviction. Bowman then petitioned the trial court for post-conviction relief,
claiming, as is relevant here, that his Sixth Amendment right to a fair trial was violated
because the jury venire was not composed of a fair cross-section of the community and that
his trial attorney was ineffective for not objecting to the racial composition of the venire. The
trial court denied Bowman’s petition as to these two claims, and the Tennessee Court of
Criminal Appeals affirmed. See Bowman v. State, No. E2016-01208-CCA-R3-PC, 2017 WL
1449232 (Tenn. Crim. App. Apr. 24, 2017), perm. app. denied (Tenn. Aug. 16, 2017).
*2 Bowman then filed a § 2254 petition in the district court, claiming that the trial court erred
in denying his motion to suppress his custodial statements and that his trial attorney was
ineffective for failing to object to the racial composition of the jury venire. The district court
concluded that the state court’s resolution of these two claims was not contrary to or an
unreasonable application of federal law, or based on an unreasonable determination of the
facts, and denied Bowman’s petition. The court denied Bowman a COA.
t

A COA may be issued “only if the applicant has made a substantial showing of the denial of
a constitutional right.” 28 U.S.C. § 2253(c)(2). To satisfy this standard, the applicant must
demonstrate that “jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
Under the Antiterrorism and Effective Death Penalty Act, a district court shall not grant a
habeas petition with respect to any claim that was adjudicated on the merits in the state
courts unless the adjudication resulted in a decision that: (1) “was contrary to, or involved
an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court”; or (2) “was based on an unreasonable determination of the facts in light of
the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d). Where the
state courts adjudicated the petitioner's claims on the merits, the relevant question is
whether the district court’s application of § 2254(d) to those claims is debatable by jurists of
reason. See Miller-El, 537 U.S. at 336.
Bowman first claims that the trial court erred in denying his motion to suppress. To be
admissible, a confession must be “free and voluntary; that is, (it) must not be extracted by
any sort of threats or violence, nor obtained by any direct or implied promises, however
slight, nor by the exertion of any improper influence.” Malloy v. Hogan, 378 U.S. 1,7 (1964)
(alteration in original) (quoting Bram v. United States, 168 U.S. 532, 542-43 (1897)).

https://nextcorrectional.westlaw.com/Document/If48451708a3allea9a06996af6fc200d/View/Full... 6/25/2020

Bowman v. Lee | WestlawNext

Page 3 of 4

Here, the Tennessee Court of Criminal appeals deferred to the trial court’s finding that
Bowman was not credible when he testified that sheriffs deputies threatened him and his
family when they arrested him. See Bowman, 2013 WL 4680402, at *10. The court of
appeals also deferred to the trial court’s finding that Bowman did not make any
incriminating statements until after the interrogating deputies advised him of his
constitutional rights. See id. On habeas corpus review, factual findings made by a state
court are "presumed to be correct” unless rebutted "by clear and convincing evidence.” 28
U.S.C. § 2254(e)(1); see Raileyv. Webb, 540 F.3d 393, 397 (6th Cir. 2008). Because a
state court’s credibility determination is entitled to deference on habeas review, see
Thompson v. Keohane, 516 U.S. 99, 109-10 (1995), and Bowman did not offer clear and
convincing evidence rebutting that determination, reasonable jurists would not debate the
district court's conclusion that the state court’s decision denying his motion to suppress was
hot contrary to or an unreasonable application of clearly established federal law.
Bowman, who is African American, also claimed that he received ineffective’assistance of
counsel because his trial attorney failed to object to the racial composition of the jury
venire. The Tennessee Court of Criminal Appeals rejected this claim because Bowman
conceded that he could not prove prejudice, and he had no evidence that the state’s juryselection procedures systematically excluded African Americans from the venire. In
reaching that conclusion, the court rejected Bowman’s claim that he was entitled to a juryselection process that ensured that his jury pool was composed of an actual cross-section
of the community. Because Bowman failed to establish an unconstitutional jury-selection
procedure, the court concluded that his attorney did not render ineffective assistance by not
objecting to the racial composition of Bowman’s venire. See Bowman, 2017 WL 1449232,
at *8-9.
*3 In order to establish ineffective assistance of counsel, the petitioner must establish both
(1) that his trial “counsel’s representation fell below an objective standard of
reasonableness" and (2) that “there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.” Strickland v.
Washington, 466 U.S. 668, 688, 694 (1984).
To succeed on a claim that he was denied a fair trial because the racial corrfposition of the
jury did not represent a fair cross-section of the community, the petitioner must demonstrate
that the jury-selection procedures result in the “systematic exclusion” of a "distinctive”
group. See Berghuis v. Smith, 559 U.S. 314, 327 (2010). And here, Bowman conceded in
the state court that he had no evidence that the state’s jury-selection procedures
systematically exclude African Americans from jury service. Moreover, the state court
correctly concluded that no clearly established law entitled Bowman to jury-selection
procedures that guaranteed that his venire actually represented a cross-section of the
community. See Taylor v. Louisiana, 419 U.S. 522, 538 (1975) (“Defendants are not entitled
to a jury of any particular composition, but the jury wheels, pools of names, panels, or
venires from which juries are drawn must not systematically exclude distinctive groups in
the community and thereby fail to be reasonably representative thereof.” (citations
omitted)); Ambrose v. Booker, 684 F.3d 638, 645 (6th Cir. 2012) (explaining ”[t]he Sixth
Amendment guarantees only the opportunity for a representative jury, not a representative

https://nextcorrectional.westlaw.com/Document/If48451708a3al Iea9a06996af6fc200d/View/Full... 6/25/2020

Bowman v. Lee | WestlawNext

Page 4 of 4

jury itself,” and the “composition of a single venire panel” is irrelevant). Because Bowman
failed to demonstrate an underlying constitutional violation, reasonable jurists would not
debate the district court’s conclusion that the state court did not unreasonably determine
that Bowman was not prejudiced by his attorney’s failure to challenge the racial
composition of his venire.
Accordingly, the court DENIES Bowman’s COA application and DENIES as moot his motion
to proceed in forma pauperis.
All Citations
Not Reported in Fed. Rptr., 2020 WL 2046568

End of
Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

WestlawNext. © 2020 Thomson Reuters

%

»

https://nextcorrectional.westlaw.com/Document/If48451708a3al 1 ea9a06996af6fc200d/View/Full... 6/25/2020

Bowman v. Boyd
Appendix
Opinion of the
United States District Court
for the Eastern District of Tennessee

Bowman v. Lee | WestlawNext

Page 1 of 9

WE8TLAW
Bowman v. Lee
United States District Court, E.D. Tennessee, at Greeneville. j October 7, 2019 j Slip Copy j 2019 WL 4941995 (Approx. 7 pages)

2019 WL 4941995
Only the Westlaw citation is currently available.
United States District Court, E.D. Tennessee,
at Greeneville.
Josh L. BOWMAN, Petitioner,
v.
Randy LEE, Warden, Respondent.
No. 2:17-CV-167-DCLC-CHS
Signed 10/07/2019
Attorneys and Law Firms
Josh L. Bowman, Mountain City, TN, pro se.
Courtney Nicole Orr, Office of Attorney General and Reporter, John H. Bledsoe, III, Office of
the Attorney General, Nashville, TN, for Respondent.
MEMORANDUM OPINION
Clifton L. Corker, United States District Judge
*1 Petitioner, Josh L. Bowman, a Tennessee inmate proceeding pro se, has filed a federal
habeas petition pursuant to 28 U.S.C. § 2254 challenging the legality of his confinement
under three counts of first-degree felony murder, one count of especially aggravated
kidnapping, one count of especially aggravated robbery, two counts of aggravated burglary,
and one count of employing a firearm during the commission of a dangerous felony. Having
considered the submissions of the parties, the State-court record, and the law applicable to
Bowman's claims, the Court finds that the petition should be denied.
I. SUMMARY OF EVIDENCE & PROCEDURAL HISTORY
Bowman and Gary S. Holman entered the home of Bill and Vickie Graves and stole a safe
on May 2, 2009. See State v. Bowman, No. E2012-00923-CCA-R3-CD, 2013 WL 4680402,
at *1-3 (Tenn. Crim. App. Aug. 29, 2013), perm. app. denied (Tenn. Feb. 11,2014)
(“Bowman /”). During the home invasion, Mr. Graves was shot by the first intruder, and
Mrs. Graves engaged in a physical altercation with the second intruder. Id. at *3-4. Mr.
Graves died as a result of the gunshot wound the following day. Id. at *4.
Bowman was subsequently developed as a suspect and was arrested. Id. at *2. After his
arrest, Bowman gave a statement to police admitting to breaking into the Graves home but
claiming that his co-defendant shot Mr. Graves while he struggled with Mrs. Graves. Id. at
*3.

https://nextcorrectional.westlaw.com/Document/I6d5e0930e9cl 1 Ie98c25d953629elb0a/View/Ful... 6/25/2020

Page 2 of 9

Bowman v. Lee | WestlawNext

'

A Knox County Grand Jury returned an indictment charging Bowman and his co-defendant,
Gary S. Holman, with two counts of aggravated burglary, one count of employing a firearm
during the commission of a dangerous felony, one count of employing a firearm during the
commission of a dangerous felony when Bowman had previously been coriS/icted of a
dangerous felony, one count of especially aggravated kidnapping, one count of especially
aggravated robbery, and three counts of first-degree felony murder [Doc. 8-1 p. 6-10]. The
defendants were separately tried. Bowman I, 2013 WL 4680402, at *1.
Prior to trial, Bowman filed a motion to suppress his statement to police, alleging his
statement was coerced and not voluntarily given [Doc. 8-1 p. 37-38], Following a hearing,
Bowman's motion to suppress was denied [Id. at 40].
Following a jury trial, Bowman was convicted of two counts of aggravated burglary, one
count of employing a firearm during the commission of a dangerous felony, one count of
especially aggravated kidnapping, three counts of first-degree felony murder, and one count
of aggravated robbery [Id. at 63-64]. In a bifurcated proceeding, Bowman pleaded guilty to
the charge of employing a firearm during the commission of a dangerous felony while
having prior convictions for dangerous felonies [Doc. 8-5 p. 65-69]. The trial court entered
judgments and sentenced Bowman to life for each of his first-degree felony convictions
[Doc. 8-1 p. 65-67], Judgments for the remaining convictions were held pending a
sentencing hearing [Id. at 63-64],
ft

After a sentencing hearing, the trial court merged Bowman's aggravated burglary
convictions [Id. at 82-83], It also merged Bowman's employing a firearm during the
commission of a dangerous felony conviction while having prior convictions with his
conviction for employing a firearm during the commission of a dangerous felony [Id. at 8485], The sentence for the employment of a firearm during the commission of a dangerous
felony was set to run consecutively to Bowman's sentence for aggravated burglary [Id. at
84]. All of Bowman's sentences were set to run concurrently with his life sentences [Id. at
82-87],
*2 Bowman subsequently filed a motion for a new trial, arguing, in part, that the trial court
should have suppressed his statements to police because he had been threatened [Id. at
71-72, 93-95], The trial court denied Bowman's motion for a new trial [Doc. 8-2 p. 96,100],
On appeal, the Tennessee Court of Criminal Appeals (“TCCA”) held that the trial court
properly denied Bowman's motion to suppress his statement to police. Bowman I, 2013
WL 4680402, at *10. However, the TCCA held that the trial court erred when it failed to
instruct the jury on the charge of especially aggravated kidnapping pursuant to State v.
White, 362 S.W. 3d 559 (Tenn. 2012). Id. at *15. It reversed Bowman's conviction for
especially aggravated kidnapping and remanded the case for a new trial on that offense. Id.
at *16. The Tennessee Supreme Court denied Bowman's application for discretionary
review [Doc. 8-13].
On remand, Bowman pleaded guilty to especially aggravated kidnapping and was
sentenced to 15 years to be served concurrently with his life sentence [Doc. 8-14 p. 29-30].

https://nextcorrectional.westlaw.com/Document/I6d5e0930e9cl 1 Ie98c25d953629elb0a/View/Ful... 6/25/2020

Page 3 of 9

Bowman v. Lee | WestlawNext

Thereafter, Bowman filed a pro se petition for post-conviction relief [Id. at 4-19]. Appointed
counsel subsequently filed an amended petition for post-conviction relief [Id. at 23-25].
Following a hearing, the post-conviction court found Bowman received ineffective
assistance of counsel when trial counsel advised him to plead guilty to employing a firearm
during the commission of a dangerous felony with prior convictions for dangerous felonies,
and it set aside Bowman's conviction for that offense [Id. at 33-37], The post-conviction
court denied relief for all of Bowman's other claims [Id. at 37], The State appealed to the
TCCA, arguing that the post-conviction court erred when it found that trial counsel was
ineffective for advising Bowman to plead guilty to employing a firearm during the
■ i
commission of a dangerous felony while having prior dangerous felony convictions [Doc. 817 p. 12-16]. Bowman cross-appealed, arguing that trial counsel was ineffective for failing
to investigate and object to the composition of the jury venire [Doc. 8-16 p. 16-18], The
TCCA affirmed the judgments of the post-conviction court. Bowman v. State, No. E201601028-CCA-R3-PC, 2017 WL 1449232, at *1 (Tenn. Crim. App. Apr. 24, 2017), perm. app.
denied (Tenn. Aug. 16, 2017) ("Bowman ir). However, the TCCA found that Bowman's
conviction for employing a firearm during the commission of a dangerous felony survived,
even though the offense with which it was merged was dismissed, and it remanded the
case for the post-conviction court to enter a judgment for that offense. Id. at *8. The
Tennessee Supreme Court denied discretionary review of this decision [Doc. 8-20].
On August 28, 2017, Bowman filed a petition for writ of habeas corpus under 28 U.S.C. §
2254, raising the following claims for relief, as paraphrased by the Court:
Claim One: The trial court failed to suppress Bowman's coerced statement to police.
Claim Two: Trial counsel was ineffective for failing to object to the jury venire as being
unrepresentative of the racial makeup of the county's population.
4

[Doc. 1 p. 5-6], On April 10, 2018, the Court ordered Respondent to file a response to the
petition, and Respondent complied by filing an answer on June 6, 2018 [Doc. 13]. Bowman
filed a traverse to the answer on June 28, 2018 [Doc. 14].
II. LEGAL STANDARD
*3 The Court's review of the instant petition is governed by the Antiterrorism and Effective
Death Penalty Act of 1996 (“AEDPA”), which prevents the grant of federal habeas relief on
any claim adjudicated on the merits in a State court unless that adjudication (1) resulted in
a decision that was contrary to, or involved an unreasonable application of, clearly
established United States Supreme Court precedent; or (2) resulted in a decision based on
an unreasonable determination of facts in light of the evidence presented. See 28 U.S.C. §
2254(d)(1) & (2); Schriro v. Landrigan, 550 U.S. 465, 473 (2007).
Federal habeas relief may be granted under the “contrary to” clause where the State court
(1) arrives at a conclusion opposite that reached by the Supreme Court on a question of
law; or (2) decides a case differently than the Supreme Court on a set of materially
indistinguishable facts. See Williams v. Taylor, 529 U.S. 362, 405-06 (2000). Under the
“unreasonable application” clause, a federal court may grant relief where the State court
applies the correct legal principle to the facts in an unreasonable manner. See id. at 407-

https://nextcorrectional.westlaw.com/Document/I6d5e0930e9cl 1 Ie98c25d953629elb0a/View/Ful... 6/25/2020

Bowman v. Lee | WestlawNext

Page 4 of 9

4.\

08; Brown v. Payton, 544 U.S. 133, 141 (2005). Whether a decision is “unreasonable” is an
objective inquiry; it does not turn on whether the decision is merely incorrect. See Schriro,
550 U.S. at 473 (“The question under AEDPA is not whether a federal court believes the
state court's determination was incorrect but whether that determination was unreasonable
- a substantially higher threshold.”); Williams,529 U.S. at 410-11. This standard will allow
relief on a federal claim decided on its merits in State court only where the petitioner
demonstrates that the State ruling “was so lacking in justification that there was an error
understood and comprehended in existing law beyond any possibility for fairminded
disagreement.” Harrington v. Richter, 562 U.S. 86, 103 (2011). When evaluating the
evidence presented in State court, a federal habeas court presumes the correctness of the
State-court's factual findings unless the petitioner rebuts the presumption by clear and
convincing evidence. See 28 U.S.C. § 2254(e)(1).
III. COERCED STATEMENT (CLAIM ONE)
A. Bowman's Allegations
i
Bowman alleges that, during his arrest, police threw him to the ground, put a gun to his
head, told him “I should do to you what you did to that old man,” and threatened that he
would not see his children again if he did not cooperate with the police [Doc. 1 p. 5], He
claims that he told officers taking his statements about these threats, but that he could not
identify the arresting officer because the officer was not wearing a uniform or identifying
insignia [Id. at 5,17],
B. Pre-trial Suppression Motion
Prior to trial, Bowman filed a motion to suppress his statement to police on the basis of
police coercion [Doc. 8-1 p. 37-38]. At the suppression hearing, Detective Yarnell, the
officer who took Bowman's statement, acknowledged that when he asked Bowman to
initial the portion of the Miranda1 rights waiver form which stated no threats had been
made, Bowman stated, “But I told you about that. You know, they did that to me.” [Doc. 8-2
p. 34], Detective Yarnell testified that he was not aware of any threats that had been made
against Bowman, and that he did not recall Bowman's making a statement that someone
had put a gun to his head or told him he might not see his children again if he did not do
what the officers told him to do [Id. at 34-39],
«
*4 Other officers present during Bowman's arrest also testified at the suppression hearing.
At least one officer had his weapon drawn during Bowman's arrest [Id. at 47], However,
these officers testified that they did not threaten Bowman, throw him to the ground, put a
gun to his head, or tell him he would never see his children again if he did not comply with
the officers' commands [Id. at 42-52]. Rather, the officers' testimony was that they ordered
Bowman to lay on the ground when he came out of the house, and that Bowman complied
[Id.].
Bowman testified that on the day of his arrest, he stepped outside of his home and saw
officers running toward his front door [Id. at 61]. He testified that one officer grabbed him,
threw him on the ground, placed a gun to his head, and told him, “I should do to you what
you did to that old man,” and “You need to do what they tell you to do, or you - you will not
see your children again” [Id. at 61-62],

https://nextcorrectional.westlaw.com/Document/I6d5e0930e9clIle98c25d953629elb0a/View/Ful... 6/25/2020

Bowman v. Lee | WestlawNext

Page 5 of 9

After hearing this evidence, the trial court first determined that Bowman was properly
advised of his Miranda warnings prior to making any statement implicating himself in the
crime [Id. at 86], It otherwise determined that Bowman's testimony was not credible, and
that there was no evidence in the record that an officer had threatened Bowman [Id. at 8687], The court also concluded that “even if a threat had been made to [Bowman by the
arresting officers], the [interrogating] officers in this case determined that he made this
statement knowingly and voluntarily” [Id. at 87]. The trial court, therefore, denied
Bowman's motion to suppress his statement to police [Id.].
The TCCA affirmed the trial court's denial of Bowman's suppression motion on direct
appeal. See Bowman I, 2013 WL 4680402, at *6, *10. In rejecting this claim, the TCCA
noted the trial court discredited Bowman's testimony that he had been threatened and
found that nothing in the record preponderated against that finding. Id. at *10. It also
acknowledged that Bowman was twenty-seven years old at the time he gave his
statement; he had an extensive criminal history; he was a high school graduate and could
read; nothing in the record indicated that his interview was repeated or prolonged; and
there was no evidence that he was detained for an extensive period of time before his
interview, or that he was intoxicated or ill at the time. Id. Additionally, the TCCA noted that
the officer who took Bowman's statement provided him with cigarettes and water. Id.
C. Law and Analysis
The Fifth Amendment to the United States Constitution, applicable to the States through the
Fourteenth Amendment, provides criminal defendants a privilege against compulsory self­
incrimination. U.S. Const. Amend. V (“No person ... shall be compelled in any criminal case
to be a witness against himself[.]”); Malloy v. Hogan, 378 U.S. 1, 6 (1963) (holding Fifth
Amendment is applicable to the States). An accused subject to a custodial interrogation
may waive this privilege, provided the waiver is voluntarily, knowingly, and intelligently
executed. Miranda v. Arizona, 384 U.S. 436, 444-45 (1966). A valid waiver, therefore,
prevents a statement from being “compelled” in the constitutional sense. Colorado v.
Spring, 479 U.S. 564, 573 (1987) (citation omitted).
Whether a defendant has voluntarily waived his privilege against self-incrimination has two
dimensions: (1) the waiver must be a free and deliberate choice, as opposed to the result of
intimidation, coercion, or deception; and (2) the waiver “must have been made with a full
awareness of both the nature of the right being abandoned and the consequences of the
decision to abandon it.” Moran v. Burbine, 475 U.S. 412, 421 (1986). The voluntariness of a
defendant's waiver is based on the totality of the circumstances. Id. This inquiry takes into
account “the background, experience, and conduct of the accused.” Johnson v. Zerbst, 304
U.S. 458, 464 (1938). Relevant factors may include the age, intelligence, and education of
the accused; whether he was advised as to his constitutional rights; the length of
questioning and/or detention; and the use of physical punishment, such as the deprivation
of food or sleep. Schneckloth v. Bustamonte, 412 U.S. 218, 226 (1973).
*5 This Court notes that it does not have “license to redetermine credibility of witnesses
whose demeanor has been observed by the state trial court, but not by [it].” Marshall v.
Lonberger, 459 U.S. 422, 434 (1983). Instead, Bowman bears the burden of rebutting the
presumption of correctness that accompanies credibility determinations by clear and

https://nextcorrectional.westlaw.eom/Document/I6d5e0930e9cllle98c25d953629elb0aA/iew/Ful... 6/25/2020

Bowman v. Lee | WestlawNext

Page 6 of 9

convincing evidence. 28 U.S.C. § 2254(e)(1). He has not presented any such evidence,
and therefore, he has not rebutted the State court's credibility determination in this cause.
Moreover, even accepting Bowman's allegations that he was threatened at the time of his
arrest as true, he did not make any incriminating statement from the time of the alleged
threat until he received his Miranda warnings, and there is no question that Bowman was
informed of his Miranda rights prior to giving his statement. Therefore, the Court finds that
the decision rejecting this claim is not contrary to, nor is it an unreasonable application of
the clearly established law governing the voluntariness of custodial statements, nor was it
based on an unreasonable determination of the facts in light of the evidence presented to
the State courts. Accordingly, Bowman is not entitled to relief on this claim.
IV. INEFFECTIVE ASSISTANCE OF TRIAL COUNSEL (CLAIM TWO)
A. Bowman's Allegations
Bowman claims that trial counsel was ineffective for failing to object to the venire on the
basis that it was not representative of the county's population, as the community was over
16 percent African American, but only one African American person was “called to the court
for venire for petit jury” [Doc. 1 p. 6],
B. State-Court Proceedings
Bowman testified at his post-conviction hearing that the venire in his case only included
one African American, and that person was ultimately excused, leaving him with an all-white
jury [Doc. 8-15 p. 6], He testified that venire members were randomly selected from a list
provided by the Department of Safety that included people who had driver's licenses and
identification cards [Id. at 7], Bowman claimed that the venire did not represent a crosssection of the community [Id.]. On cross-examination, however, Bowman admitted that he
never saw the larger venire; he only saw the prospective jurors who were brought into the
t
courtroom prior to trial [Id. at 10-11],
The Knox County jury coordinator testified that sending calls for jury duty was an
automated process which used the Department of Safety database and randomly selected
jurors from the county's residents with a driver's license or State identification card [Id. at
32-33, 37-38], This process does not reveal the race of those selected [Id. at 33], The
coordinator stated that the court would typically ask for around 1200 notices to be sent for
criminal court and around 100 notices to be sent for circuit court [Id. at 37-38].
Bowman's trial counsel testified that while there were a “couple of minorities” in the jury
panel, he did not think the jury venire reflected the community's racial composition [Id. at
26-28, 30]. He stated he did not believe he could raise a successful challenge on that basis,
however [Id. at 28-30]. Counsel stated that given the strength of the State's case, he did not
think the racial composition of the jury was determinative at trial [Id. at 29-30].
The post-conviction court credited Bowman's testimony that he was convicted by an allwhite jury [Doc. 8-14 p. 30], The court found, however, that there was “no proof that the
entire panel only included one African American,” and it noted that trial counsel believed
there were “a couple of African Americans in the venire” [Id.]. The post-conviction court
denied relief, noting there was no evidence there was a disparity in the number of African

https://nextcorTectional.westlaw.com/Dociiment/I6d5e0930e9cl 1 Ie98c25d953629elb0a/View/Ful... 6/25/2020

Bowman v. Lee | WestlawNext

<s

Page 7 of 9

Americans in the jury pool compared to the community, and that evidence at the postconviction hearing had established that there was no systematic exclusion of any racial
group [Id. at 32-33].
In his brief to the TCCA, Bowman acknowledged that he could not demonstrate that he
was prejudiced as a result of the jury's makeup, or that the allegedly improper procedures
resulted from purposeful discrimination or fraud [Doc. 8-16 p. 17-18]. Citing the abovepresented evidence, the TCCA concluded that trial counsel was not ineffective for failing to
challenge the venire. Bowman II, 2017 WL 1449232, at *8-9.
C. Law and Analysis
*6 Claims of ineffective assistance of counsel are governed by the standard set forth in
Strickland v. Washington, 466 U.S. 668 (1984), which requires a habeas petitioner to satisfy
a two-prong test to warrant federal habeas corpus relief: (1) he must demonstrate
constitutionally deficient performance by counsel, and (2) he must demonstrate actual
prejudice as a result of such ineffective assistance. Strickland, 466 U.S. 668 (1984).
Deficiency is established when a petitioner can demonstrate that counsel's performance
falls below an objective standard of reasonableness as measured by professional norms,
such that counsel was not functioning as the “counsel” guaranteed by the Sixth
Amendment. Id. at 687-88. A reviewing court's scrutiny is to be highly deferential of
counsel's performance, with an effort to “eliminate the distorting effects of hindsight.” Id. at
689. In fact, counsel is to be afforded a presumption that his actions were the product of
“sound trial strategy” and undertaken with the.exercise of reasonable professional
judgment. Id.
Prejudice is established when the petitioner can demonstrate to a reasonable probability
that the result of the proceedings would have been different but for the challenged conduct,
thereby undermining confidence in the reliability of the outcome. Id. at 694. However, an
error, even if professionally unreasonable, does not warrant setting aside the judgment if it
had no effect on the judgment. Id. at 691.
On habeas review, the issue for the district court is not whether the Strickland standard is
met, but rather, whether the State-court's decision that Strickland was not met warrants
relief under AEDPA standards. See Harrington v. Richter, 562 U.S. 86, 105 (2011) (“When
2254(d) applies, the question is not whether counsel's actions were reasonable. The
question is whether there is any reasonable argument that counsel satisfied' Strickland's
deferential standard.”). Accordingly, when a Strickland claim has been rejected on its merits
by a State court, a petitioner “must demonstrate that it was necessarily unreasonable” for
the State court to rule as it did in order to obtain federal habeas relief. Cullen v. Pinholster,
563 U.S. 170, 190 (2011).
Under the Sixth Amendment, a jury must be drawn from a fair cross-section of the
community. Taylor v. Louisiana, 419 U.S. 522, 527-28 (1975). Jury selection processes of a
state may not systematically exclude distinctive groups of the community from the jury pool.
Duren v. Missouri, 439 U.S. 357, 363-64 (1979). To establish a prima facie case that jury
selection has violated the fair cross-section requirement, petitions must show “(1) that the
group alleged to be excluded is a ‘distinctive’ group in the community; (2) that the

https://nextcorrectional.westlaw.com/Document/I6d5e0930e9cl 1 Ie98c25d953629elb0a/View/Ful... 6/25/2020

Bowman v. Lee | WestlawNext

Page 8 of 9

representation of this group in venires from the juries are selected is not fair and
reasonable in relation to the number of such persons in the community; and (3) that this
underrepresentation is due to systematic exclusion of the group in the jury-selection
process.” Id. at 364.
<
Here, as the record reflects, Bowman only saw those potential jurors brought into the
courtroom for jury selection and did not see the entire jury venire. Moreover, he cannot
demonstrate any systematic exclusion on the basis of race in the jury-selection process.
Indeed, as the state court noted, the jury venire was composed of a random selection of
persons from a Tennessee Department of Safety database without consideration of race or
gender. He also did not introduce evidence of "underrepresentation.” In fact, there was no
evidence presented at the post-conviction hearing regarding the racial makeup of Knox .
County, or whether the jury venire accurately reflected that makeup. In other words, nothing
in the record shows that the jury venire did not reflect a fair cross-section of the community,
or that any alleged failure was the result of a systematic exclusion of a particular race from
the jury venire. Therefore, Bowman has failed to demonstrate that counsel performed
deficiently by failing to object to the jury's composition, or that he was prejudiced as a
result.
*7 Accordingly, the Court finds that Bowman has failed to demonstrate that the TCCA's
decision rejecting this claim is contrary to, or involves an unreasonable application of,
Strickland and its progeny, or that it was based upon an unreasonable determination of
facts in light of the evidence presented. Bowman is not entitled to relief on this claim.
V. CERTIFICATE OF APPEALABILITY
A petitioner must obtain a certificate of appealability (“COA”) before he may appeal this
Court's decision denying federal habeas relief. 28 U.S.C. § 2253(c)(1). A COA will not issue
unless a petitioner makes "a substantial showing of the denial of a constitutional right” of
any claim rejected on its merits, which a petitioner may do by demonstrating that
“reasonable jurists would find the district court's assessment of the constitutional claims
debatable or wrong.” 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 484 (2000).
To obtain a COA on a claim that has been rejected on procedural grounds, a petitioner must
demonstrate “that jurists of reason would find it debatable whether the petition states a valid
claim of the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.” Slack, 529 U.S. at 484.
Applying this standard, the Court concludes that a COA should be denied in this case.
VI. CONCLUSION
Bowman has failed to demonstrate an entitlement to federal habeas relief. Therefore, his
petition for a writ of habeas corpus will be DENIED, and this action will be DISMISSED
WITH PREJUDICE. A certificate of appealability from this decision will be DENIED.
Further, the Court will CERTIFY that any appeal from this action would not be taken in good
faith and would be totally frivolous. Fed. R. App. P. 24.
AN APPROPRIATE ORDER WILL ENTER.
SO ORDERED.

https://nextcorrectional.westlaw.com/Document/I6d5e0930e9cl 1 Ie98c25d953629elb0a/View/Ful... 6/25/2020

Bowman v. Lee | WestlawNext

Page 9 of 9

All Citations
Slip Copy, 2019 WL 4941995
'"1

Footnotes
1

In Miranda v. Arizona, the Supreme Court determined that the Fifth
Amendment's prohibition against compelled self-incrimination requires that
custodial interrogations be preceded by advice to the accused, such as the
right to remain silent and the right to request the presence of an attorney. See
*
Miranda v. Arizona, 384 U.S. 436, 478-79 (1966).

End of
Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

WestlawNext. © 2020 Thomson Reuters

*

*

https://nextcorrectional.westlaw.eom/Document/I6d5e0930e9cllle98c25d953629elb0a/View/Ful... 6/25/2020

Case: 19-6242

Document: 15-1

Filed: 05/06/2020

No. 19-6242

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JOSH L. BOWMAN
Petitioner-Appellant,
v.
RANDY LEE, WARDEN,
Respondent-Appellee.

(1 Of 2)

Page: 1

)
)
)
)
)
)
)
)
)

May 06, 2020
DEBORAH S. HUNT, Clerk

ORDER .

Before: GUY, DONALD, and LARSEN, Circuit Judges.

Josh L. Bowman petitions for rehearing en banc of this court’s order entered on
February 25, 2020, denying his application for a certificate of appealability. The petition was
initially referred to this panel, on which the original deciding judge does not sit. After review of
the petition, this panel issued an order announcing its conclusion that the original application was
properly denied. The petition was then circulated to all active members of the court, none of
whom requested a vote on the suggestion for an en banc rehearing. Pursuant to established
court procedures, the panel now denies the petition for rehearing en banc.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

